<html>
<title> - NEXT STEPS IN HUMAN EXPLORATION TO MARS AND BEYOND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    NEXT STEPS IN HUMAN EXPLORATION 
                           TO MARS AND BEYOND 

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, MAY 21, 2013

                               __________

                           Serial No. 113-30

                               __________

 Printed for the use of the Committee on Science, Space, and Technology

       Available via the World Wide Web: http://science.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-194 PDF                       WASHINGTON : 2013 


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           ROBIN KELLY, Illinois
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                         Subcommittee on Space

               HON. STEVEN M. PALAZZO, Mississippi, Chair
RALPH M. HALL, Texas                 DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         SUZANNE BONAMICI, Oregon
FRANK D. LUCAS, Oklahoma             DAN MAFFEI, New York
MICHAEL T. McCAUL, Texas             JOSEPH KENNEDY III, Massachusetts
MO BROOKS, Alabama                   DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                MARC VEASEY, Texas
BILL POSEY, Florida                  JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            FREDERICA S. WILSON, Florida
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
CHRIS STEWART, Utah
LAMAR S. SMITH, Texas


                            C O N T E N T S

                         Tuesday, May 21, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    11

Statement by Representative Donna Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    15

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    15
    Written Statement............................................    17

                               Witnesses:

Dr. Louis Friedman, Co-Lead, Keck Institute for Space Studies 
  Asteroid Retrieval Mission Study and Executive Director 
  Emeritus, The Planetary Society
    Oral Statement...............................................    18
    Written Statement............................................    20

Dr. Paul Spudis, Senior Staff Scientist, Lunar and Planetary 
  Institute
    Oral Statement...............................................    27
    Written Statement............................................    29

Dr. Steven M. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University
    Oral Statement...............................................    35
    Written Statement............................................    37

Mr. Douglas Cooke, Owner, Cooke Concepts and Solutions
    Oral Statement...............................................    45
    Written Statement............................................    47

Discussion.......................................................      

             Appendix I: Answers to Post-Hearing Questions

Dr. Louis Friedman, Co-Lead, Keck Institute for Space Studies 
  Asteroid Retrieval Mission Study and Executive Director 
  Emeritus, The Planetary Society................................    82

Dr. Paul Spudis, Senior Staff Scientist, Lunar and Planetary 
  Institute......................................................    88

Dr. Steven M. Squyres, Goldwin Smith Professor of Astronomy, 
  Cornell University.............................................    94

Mr. Douglas Cooke, Owner, Cooke Concepts and Solutions...........   103

            Appendix II: Additional Material for the Record

Report submitted by Dr. Paul Spudis..............................   120

Article submitted by Dr. Paul Spudis.............................   144

Article submitted by Dr. Paul Spudis.............................   156

Article submitted by Dr. Paul Spudis.............................   158

Article submitted by Dr. Paul Spudis.............................   164


           NEXT STEPS IN HUMAN EXPLORATION TO MARS AND BEYOND

                              ----------                              


                         TUESDAY, MAY 21, 2013

                  House of Representatives,
                                    Subcommittee on Science
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:02 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven M. 
Palazzo [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Palazzo. The Subcommittee on Space will come to 
order. Good afternoon. Welcome to today's hearing titled ``Next 
Steps in Human Exploration to Mars and Beyond.'' In front of 
you are packets containing the written testimony, biographies, 
and required truth-in-testimony disclosures for today's 
witnesses.
    Before I begin, I do want to take a moment to express our 
thoughts and prayers on behalf of this Committee for those in 
Oklahoma who have just gone through the recent tornadoes. As 
Americans came to their fellow Americans in aid for Hurricane 
Katrina, Super Storm Sandy, we expect nothing less from us in 
our friends' time of need.
    I recognize myself for five minutes for an opening 
statement.
    I would also like to take a moment and remember Astronaut 
Sally Ride, the first American woman in space, who was honored 
last night at the Kennedy Center for her tireless work 
promoting the Nation's space program and her devotion to STEM 
education for our Nation's children.
    Over the last decade, the human exploration program at NASA 
has been plagued with instability from constantly changing 
requirements, budgets, and missions. We can't continue changing 
our program of record every time there is a new President. This 
committee is consistent and unwavering in its commitment to 
human exploration, a tradition that I am confident will 
continue into the future.
    Congress issued steady guidance in the 2005 and 2008 
Authorization Acts that directed NASA to base exploration 
progress on availability of funds. In accordance with the 
Authorization Act of 2010, NASA is developing the most powerful 
exploration vehicle and advanced crew capsule since the Apollo 
era. The SLS and Orion will take our astronauts deeper into 
space than ever before. I am committed to the success of these 
assets and ensuring their continued on-time development and 
appropriate prioritization moving forward.
    I, and many on this Committee, are frustrated that the 
Administration insists on cutting its funding request for the 
SLS and Orion. Reductions in these programs make me question 
the Administration's sincere commitment to their success. If 
nothing else comes out of this hearing, I hope it is clear to 
those inside and outside the Administration that this Committee 
is devoted to human exploration and we intend to ensure this 
year's authorization reflects that commitment.
    Numerous studies and commissions have provided Congress 
with recommendations for purposes and goals for exploring 
space. We don't need another study, we need action. As we move 
forward in the next few months with the NASA Authorization Act, 
Congress must address our path to Mars and beyond so there will 
be no question as to where we are headed and how we will get 
there.
    As we venture further into the solar system, there must be 
a plan in place for the capabilities, skills, and technologies 
needed to land humans on Mars and return them safely to the 
Earth. Today, we will discuss the best way to take our first 
steps toward Mars and the path we should follow to get there. 
The two most commonly referenced possibilities for next steps 
are an asteroid mission and a lunar mission. We have a panel of 
experts with us today that will be able to speak to both of 
these options.
    The last three NASA Authorization Acts have created a clear 
legislative record supporting a return to the Moon with a 
sustained human presence as a training ground for venturing 
further into the solar system. There are many advantages to 
returning humans to the Moon and I look forward to hearing from 
our witnesses today about what we may gain from a return to the 
surface of our closest celestial neighbor.
    Additionally, this year the Administration proposed to 
capture an asteroid and move it to a nearby orbit as technology 
demonstration and exploration training opportunity. Prior to 
this year, NASA has not presented Congress with any indication 
such a mission would be in development. I still have many 
questions about the budget profile, technical plan, schedule, 
and long-term strategy as NASA has yet to even complete a 
mission formulation review. I am not convinced this mission is 
the right way to go and that it may actually prove a detour for 
a Mars mission.
    Today, we have one of the scientists who wrote the study 
which became the basis of the asteroid mission, and I look 
forward to hearing his thoughts.
    Human exploration has always had its challenges, but the 
U.S. has always risen to the occasion. This country was built 
by people who dream big and do hard things. I believe the 
decisions we make today will determine whether the United 
States maintains its leadership in space tomorrow. In the 
future, as in the past, I hope we will be able to focus mission 
priorities and goals to ensure our best chance of success.
    And of course, if I may, I would just like to introduce my 
friends with the partners with Stennis who are here. I know 
several of you all may be with the citizens for the exploration 
of space. Thank you all for being here and it was great to have 
a little tongue twister while you are in the audience. Just say 
call it Moon. Why don't we just do that? Lunar, lunar, lunar, 
okay. I got it.
    I now recognize our Ranking Member, the gentlelady from 
Maryland, Ms. Edwards, for an opening statement.
    [The prepared statement of Mr. Palazzo follows:]

  Prepared Statement of Subcommittee on Space Chairman Steven Palazzo

    Before we begin, I would like to take a moment to recognize 
Astronaut Sally Ride, the first American woman in space, who was 
honored last night at the Kennedy Center for her tireless work 
promoting the nation's space program and her devotion to STEM education 
for our nation's children.
    Over the last decade, the human exploration program at NASA has 
been plagued with instability from constantly changing requirements, 
budgets, and missions. We can't continue changing our program of record 
every time there is a new President. This Committee is consistent and 
unwavering in its commitment to human exploration, a tradition that I 
am confident will continue into the future. Congress issued steady 
guidance in the 2005 and 2008 Authorization Acts that directed NASA to 
base exploration progress on availability of funds.
    In accordance with the Authorization Act of 2010, NASA is 
developing the most powerful exploration vehicle and advanced crew 
capsule since the Apollo era. The SLS and Orion will take our 
astronauts deeper into space than ever before. I am committed to the 
success of these assets and ensuring their continued on-time 
development and appropriate prioritization moving forward. I, and many 
on this Committee, are frustrated that the Administration insists on 
cutting its funding request for the SLS and Orion. Reductions in these 
programs make me question the Administration's sincere commitment to 
their success. If nothing else comes out of this hearing, I hope it is 
clear to those inside and outside the Administration that this 
Committee is devoted to human exploration and we intend to ensure this 
year's authorization reflects that commitment.
    Numerous studies and commissions have provided Congress with 
recommendations for purposes and goals for exploring space. We don't 
need another study, we need action.
    As we move forward in the next few months with the NASA 
Authorization Act, Congress must address our path to Mars and beyond so 
there will be no question as to where we are headed and how we will get 
there.
    As we venture further into the solar system there must be a plan in 
place for the capabilities, skills, and technologies needed to land 
humans on Mars and return them safely to the Earth. Today we will 
discuss the best way to take our first steps toward Mars and the path 
we should follow to get there. The two most commonly referenced 
possibilities for next steps are an asteroid mission and a lunar 
mission. We have a panel of experts with us today that will be able to 
speak to both of these options.
    The last three NASA Authorization Acts have created a clear 
legislative record supporting a return to the Moon with a sustained 
human presence as a training ground for venturing further into the 
solar system.
    There are many advantages to returning humans to the Moon and I 
look forward to hearing from our witnesses today about what we may gain 
from a return to the surface of our closest celestial neighbor.
    Additionally, this year the Administration proposed to capture an 
asteroid and move it to a nearby orbit as a technology demonstration 
and exploration training opportunity. Prior to this year, NASA had not 
presented Congress with any indication such a mission would be in 
development. I still have many questions about the budget profile, 
technical plan, schedule, and long-term strategy as NASA has yet to 
even complete a mission formulation review.
    I am not convinced this mission is the right way to go and that it 
may actually prove a detour for a Mars mission. Today we have one of 
the scientists who wrote the study which became the basis of the 
asteroid mission, and I look forward to hearing his thoughts.
    Human exploration has always had its challenges, but the United 
States has always risen to the occasion. This country was built by 
people who dream big and do the hard things. I believe the decisions we 
make today will determine whether the U.S. maintains its leadership in 
space tomorrow. In the future, as in the past, I hope we will be able 
to focus mission priorities and goals to ensure our best chances of 
success.

    Ms. Edwards. Well, thank you, Mr. Chairman. And good 
afternoon and welcome to our distinguished panel of witnesses. 
I really appreciate, Mr. Chairman, that you called this hearing 
on Next Steps in Human Exploration to Mars and Beyond. I have 
to say I don't know what the rest of Congress is doing, but 
this Subcommittee and our Full Committee have been quite active 
in our oversight. We have held hearings recently on near-Earth 
objects, exoplanets, as well as previous hearings that we have 
held on Mars and planetary science. And these issues have only 
deepened my enthusiasm for what NASA does and wetted my 
appetite for the places that our astronauts, our humans, might 
explore in the future.
    Human exploration is indeed a big part of NASA and its 
inspiring mission. It is also an important catalyst for 
advancing our Nation's innovation agenda and for demanding the 
types of skills and educated workforce that contribute to our 
Nation's economic strength. I want to ensure that others share 
my enthusiasm and excitement and one day experience the thrill, 
the absolute thrill, of American astronauts, of humans 
traveling to and exploring a surface far beyond our Earth and 
then returning safely home. That is something that the United 
States of America has not done in four decades and I don't want 
another four decades to pass before we explore deep space 
again.
    That is why I am delighted to hear that NASA Administrator 
Charles Bolden speak more often more recently about Mars as an 
ultimate destination, at least in the next 20 years, for human 
exploration. Today's hearing will examine potential interim 
steps en route to that ultimate destination.
    Successive NASA Authorization Acts have authorized a 
steppingstone approach to human exploration. The Moon, near-
Earth asteroids, and other points are among the destinations 
that can be considered to help prepare for eventual human 
exploration of Mars. The Administration's recent proposal to 
capture a near-Earth asteroid, bring it into translunar orbit--
lunar orbit, and to potentially send humans there is yet 
another possible step, but before we look at interim steps, we 
need first to understand what it takes to get to Mars.
    Learning how to deal with extended space travel, protecting 
ourselves from harmful radiation, and surviving on another 
planet are a few challenges that come to mind for humans. Is 
there a plan to get there and to address these and other 
challenges? What should Congress expect to be included in a 
credible and measured roadmap to achieve the goals of sending 
humans to Mars? Such a guide can help us determine whether one 
or more interim steps make sense and which one--how an interim 
destination would move us forward along the roadmap and which 
destination or destinations are most effective in enabling 
progress towards a Mars goal.
    We have an impressive group of witnesses here today, Mr. 
Chairman, with deep expertise in these issues that we are 
discussing, and so I thank you for joining us and I look 
forward to your testimony and to learning from you.
    And with that, Mr. Chairman, I thank you and I yield the 
balance of my time.
    [The prepared statement of Ms. Edwards follows:]

      Prepared Statement of Ranking Minority Member Donna Edwards

    Good afternoon and welcome to our distinguished panel of witnesses.
    Thank you, Mr. Chairman, for calling this hearing today on ``Next 
Steps in Human Exploration to Mars and Beyond.''
    The hearings this Subcommittee and the Full Committee have recently 
held on near Earth objects and exoplanets, as well as previous hearings 
held on Mars and planetary science, have only deepened my enthusiasm 
for what NASA does and wetted my appetite for the places that our 
astronauts might explore.
    Human exploration is indeed a big part of NASA and its inspiring 
mission.
    It's also an important catalyst for advancing our nation's 
innovation agenda and for demanding the types of skills and educated 
workforce that contribute to our nation's economic strength.
    I want to ensure that others share in my excitement and one day 
experience the thrill of American astronauts traveling to and exploring 
a surface far beyond our Earth, and then returning safely home.
    That is something that the United States of America has not done in 
four decades, and I don't want another four decades to pass before we 
explore deep space again.
    That's why I'm delighted to hear the NASA Administrator, Charles 
Bolden, speaking more often about Mars as the ultimate destination for 
human space exploration.
    Today's hearing will examine potential interim steps en route to 
that ultimate destination.
    Successive NASA Authorizations Acts have authorized a ``stepping 
stone approach'' to human exploration. The Moon, near Earth asteroids, 
and Lagrangian points are among the destinations that can be considered 
to help prepare for eventual human exploration of Mars.
    The Administration's recent proposal to capture a near Earth 
asteroid, bring it into trans-lunar orbit, and to potentially send 
humans there is yet another possible step. But before we look at 
interim steps, we need first to understand what it takes to get to 
Mars.
    Learning how to deal with extended space travel, protecting 
ourselves from harmful radiation, and surviving on another planet are a 
few challenges that come to mind.
    Is there a plan to get there and to address these and other 
challenges?
    What should Congress expect to be included in a credible and 
measured roadmap to achieve the goal of sending humans to Mars?
    Such a guide can help us determine whether one or more interim 
steps makes sense, how an interim destination moves us forward along 
the roadmap, and which destination or destinations are most effective 
in enabling progress toward a Mars goal.
    We have an impressive group of witnesses here today with deep 
expertise in the issues we are discussing, so thank you for joining us 
and I look forward to your testimony.

    Chairman Palazzo. Thank you, Ms. Edwards. I now recognize 
the Chairman of the Full Committee for a statement.
    Mr. Smith?
    Chairman Smith. Thank you, Mr. Chairman.
    Human history is punctuated by great advancements in the 
exploration of the world around us. We have long sought out the 
next frontier, which may well be the exploration of our solar 
system. No doubt humankind will continue to push the boundaries 
of the known universe.
    Not long ago, the exploration of Mars was considered 
science fiction. Today, with two active Martian robotic 
missions ongoing, it is no longer science fiction at all. Space 
exploration goes beyond rockets and avionics; it is about hope 
for the future. Human space flight represents the aspirations 
and ambitions of the American people.
    Few sights are more inspiring than when a rocket lifts off 
a launch pad and disappears into the sky. Investments in the 
Space Launch System and Orion crew capsule manifest the 
ingenuity of the American people and the next steps in space 
exploration.
    Neil Armstrong and Buzz Aldrin transfixed America and the 
world when they landed on the Moon in 1969. The Apollo program 
was proof that we are not permanently tethered to our home 
planet. It was a reminder that humans will always be explorers.
    As our space program prepares for the next step to Mars, 
Congress must ensure that there is a strategic plan in place. 
NASA should have a well-thought-out and convincing plan before 
committing scarce resources. The trip to Mars will not be a 
direct one. We will need to train for it before we send a crew, 
much like the Apollo missions.
    One option for training would be a set of lunar missions. 
Congress has a long history of support for lunar landings and 
exploration. To me, there is no better way for our astronauts 
to learn how to live and work on another planet than to use the 
Moon as a training ground. Another option presented by NASA 
this year is an asteroid retrieval mission. It is difficult to 
determine what advantages this may offer without a plan to 
evaluate.
    The Administration originally proposed a mission to an 
asteroid in deep space. A recent National Research Council 
report found little support for the proposal. Without a 
consensus for the original plan, NASA haphazardly created a new 
asteroid retrieval mission. Unfortunately, NASA did not seek 
the advice of its own Small Bodies Assessment Group before 
presenting the mission to Congress. If NASA had sought the 
advisory group's advice, they would have heard it was 
``entertaining, but not a serious proposal.'' Maybe that is why 
they didn't ask.
    As this Committee begins to draft the NASA Reauthorization 
Act, we must be mindful of the impact it will have on the 
future. The policies we put in place today will affect our 
capabilities many years from now.
    Thank you, Mr. Chairman. I will yield back.
    [The prepared statement of Mr. Smith follows:]

               Prepared Statement of Chairman Lamar Smith

    Human history is punctuated by great advancements in the 
exploration of the world around us. We have long sought out the next 
frontier, which may well be the exploration of our solar system. No 
doubt humankind will continue to push the boundaries of the known 
universe.
    Not long ago, the exploration of Mars was considered science 
fiction. Today, with two active robotic missions on-going, it's no 
longer fiction. Space exploration goes beyond rockets and avionics; it 
is about hope for the future. Human space flight represents the 
aspirations and ambitions of the American people.Few sights are more 
inspiring than when a rocket lifts off a launch pad and disappears into 
the sky.
    Investments in the Space Launch System and Orion crew capsule 
manifest the ingenuity of the American people and the next steps in 
space exploration.Neil Armstrong and Buzz Aldrin transfixed America and 
the world when they landed on the Moon in 1969. The Apollo program was 
proof that we were not permanently tethered to our home planet. It was 
a reminder that humans will always be explorers.
    As our space program prepares for the next step to Mars, Congress 
must ensure there is a strategic plan in place. NASA should have a well 
thought out and convincing plan before committing scarce resources. The 
trip to Mars will not be a direct one. We will need to train for it 
before we send a crew, much like the Apollo missions.
    One option for training would be a set of lunar missions. Congress 
has a long history of support for lunar landings and exploration. To 
me, there is no better way for our astronauts to learn how to live and 
work on another planet than to use the moon as a training ground. 
Another option presented by NASA this year is an asteroid retrieval 
mission. It is difficult to determine what advantages this may offer 
without a plan to evaluate.
    The Administration originally proposed a mission to an asteroid in 
deep space. A recent National Research Council report found little 
support for the proposal. Without a consensus for the original plan, 
NASA haphazardly created a new asteroid retrieval mission. 
Unfortunately, NASA did not seek the advice of its own Small Bodies 
Assessment Group before presenting the mission to Congress.
    If NASA had sought the advisory group's advice, they would have 
heard it was ``entertaining, but not a serious proposal.'' Maybe that's 
why they didn't ask. As this Committee begins to draft the NASA 
Reauthorization Act, we must be mindful of the impact it will have on 
the future. The policies we put in place today will affect our 
capabilities many years from now.

    Chairman Palazzo. Thank you, Mr. Smith.
    I now recognize the Ranking Member of the Full Committee 
for a statement. Ms. Johnson?
    Ms. Johnson. Thank you very much and good afternoon. I 
would like to join the Chairman and Ranking Member Edwards in 
welcoming our witnesses for today's hearing. It is a 
distinguished group of experts and I look forward to their 
testimony.
    The topic of this hearing is an important one as it touches 
directly on the future direction of the Nation's human 
exploration program. I expect that it will be a lively 
discussion and that it really should be because it just gives 
us further evidence that NASA space exploration activity is 
both human and robotic matter and thus worth discussing, maybe 
even arguing about.
    As my colleagues know, I have long been a supporter of 
human exploration. It pushes technological innovation, advances 
our understanding of the universe, challenges our best and 
brightest, and inspires millions of our young people. It also 
is a very visible symbol of our commitment to the very peaceful 
commitment to our outer space. In fact, it is not an 
exaggeration to say that NASA and its programs provide one of 
the most positive images of the United States abroad and that 
is as much as we could hope for.
    Yet it is evident that despite clear policy direction and 
successive NASA Authorization Acts, NASA's human exploration 
program still has an air of tentativeness about it. For 
example, the International Space Station, which I strongly 
support, is currently the lynchpin of our human exploration and 
spaceflight program. However, we still lack a clear picture of 
the ways it will be used to advance the Nation's exploration 
goals.
    In addition, the Space Launch System and the Orion crew 
vehicle are transportation systems that will be needed for 
whichever path we take in our human exploration program, yet 
they currently are being funded at levels significantly below 
the authorized budgets and are being forced to make progress 
under the funding profile that is anything but typical of 
challenging development programs. If we--if they are essential 
to the success of the exploration program, then their 
priorities should be reflected in the resources they are given.
    Finally, of course, if our Nation's exploration program is 
to succeed, we need to have a clear roadmap to follow. That, 
too, is lacking at present. Mr. Chairman, we can criticize 
NASA, we can criticize the current or previous Administrations; 
the reality is we also need to look at our own actions. I 
believe that many of our colleagues see the benefits both 
tangible and intangible that we have reaped from our past 
investments in NASA and successive Congresses have directed 
NASA to undertake an exciting and inspiring initiative and 
human expiration of our solar system with Mars as an obvious 
and challenging goal. That is as it should be. It is a goal 
worthy of the great Nation that we are and one that will lead 
to good things for our country even if its attainment winds up 
taking longer than some of us would like.
    Yet at the same time we appear to be unwilling to make the 
investments that NASA will need to make it if it is to succeed. 
And we are even failing to deliver the funding we do provide on 
any kind of predictable basis. This is unfair to the hard-
working men and women of NASA and its contracted team and it is 
unduly increasing risk and winds up costing us more down the 
road. Yet I am afraid that we seem poised to repeat that 
pattern again as we consider this year's authorization and 
appropriations for NASA. We have just forced NASA to take a 
significant cut to its Fiscal Year 2013 budget as a result of 
sequestration, and some of the House seem prepared to extend 
those cuts into Fiscal Year 2014 and beyond.
    If Congress actually carries through with such shortsighted 
cuts, it will make all of the earnest protestations of support 
for exploration that we may hear today sound very empty indeed. 
I hope that as we prepare to move forward with our NASA 
reauthorization, this Committee at least will make sure that 
NASA has the resources it will need to carry out the very 
challenging task that this Nation has given it.
    Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Ranking Member Eddie Bernice Johnson

    Good afternoon. I would like to join the Chairman and Ranking 
Member Edwards in welcoming our witnesses to today's hearing. It is a 
distinguished group of experts, and I look forward to their testimony.
    The topic of this hearing is an important one, as it touches 
directly on the future direction of the nation's human exploration 
program. I expect that it will be a lively discussion, and that is as 
it should be, because that is just further evidence that NASA's space 
exploration activities, both human and robotic, matter-and thus are 
worth arguing about.
    As my colleagues know, I have long been a supporter of human space 
exploration. It pushes technological innovation, advances our 
understanding of the universe, challenges our best and brightest, and 
inspires millions of our young people. It also is a very visible symbol 
of our commitment to the peaceful use of outer space. In fact, it's not 
an exaggeration to say that NASA and its programs provide one of the 
most positive images of America abroad that we could hope for.
    Yet it is evident that despite clear policy direction in successive 
NASA Authorization Acts, NASA's human exploration program still has an 
air of tentativeness about it. For example, the International Space 
Station, which I strongly support, is currently the linchpin of our 
human spaceflight program. However, we still lack a clear picture of 
the ways it will be used to advance the nation's exploration goals. In 
addition, the Space Launch System and Orion crew vehicle are the 
transportation systems that will be needed for whichever path we take 
in our human exploration program. Yet, they currently are being funded 
at levels significantly below their authorized budgets, and are being 
forced to make progress under a funding profile that is anything but 
typical for challenging development programs. If they are essential to 
the success of the exploration program, then their priority should be 
reflected in the resources they are given.
    Finally, of course, if our nation's exploration program is to 
succeed, we need to have a clear roadmap to follow. That too is lacking 
at present.
    Mr. Chairman, we can criticize NASA. We can criticize the current 
or the previous Administration. The reality is we also need to look at 
our own actions. I believe that many of our colleagues see the 
benefits, both tangible and intangible, that we have reaped from our 
past investments in NASA. And successive Congresses have directed NASA 
to undertake an exciting and inspiring initiative of human exploration 
of our solar system, with Mars as an obvious and challenging goal. That 
is as it should be-it is a goal worthy of a great nation, and one that 
will lead to good things for our country, even if its attainment winds 
up taking longer than some of us would like. Yet, at the same time we 
appear to be unwilling to make the investments that NASA will need for 
us to make if it is to succeed. And we are even failing to deliver the 
funding that we do provide on any kind of predictable basis.
    That is unfair to the hardworking women and men of NASA and its 
contractor team. And it unduly increases risk and winds up costing us 
more down the road. Yet I'm afraid that we seem poised to repeat that 
pattern again as we consider this year's authorization and 
appropriation for NASA. We have just forced NASA to take a significant 
cut to its Fiscal Year 2013 budget as a result of sequestration, and 
some in the House seem prepared to extend those cuts into FY 14 and 
beyond. If Congress actually carries through with such short-sighted 
cuts, it will make all of the earnest protestations of support for 
exploration that we may hear today sound very empty indeed. I hope that 
as we prepare to move forward with our NASA reauthorization this 
Committee, at least, will make sure that NASA has the resources it will 
need to carry out the very challenging tasks that this nation given it.

    Chairman Palazzo. Thank you, Ms. Johnson.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our panel of 
witnesses. Our first witness is Dr. Louis Friedman, Co-Lead of 
the Keck Institute for Space Studies Asteroid Retrieval Mission 
Study and Executive Director Emeritus of the Planetary Society. 
Our second witness is Dr. Paul Spudis, Senior Staff Scientist 
at the Lunar and Planetary Institute. Our third witness is Dr. 
Steven Squyres, the Goldwin Smith Professor of Astronomy at 
Cornell University and Chair of the NASA Advisory Council. Our 
final witness is Mr. Doug Cooke, an Aerospace Consultant with 
Cooke Concepts and Solutions. Prior to his current position, 
Mr. Cooke served as the Associate Administrator for Exploration 
Systems Mission Directorate at NASA.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee have 
five minutes each to ask questions. Your written testimony will 
be included in the record of the hearing.
    I now recognize our first witness, Dr. Friedman, for five 
minutes.

                TESTIMONY OF DR. LOUIS FRIEDMAN,

           CO-LEAD, KECK INSTITUTE FOR SPACE STUDIES

                ASTEROID RETRIEVAL MISSION STUDY

                AND EXECUTIVE DIRECTOR EMERITUS,

                     THE PLANETARY SOCIETY

    Dr. Friedman. Thank you very much, Mr. Chairman and Members 
of the Committee. It is an honor to be here again. The very 
holding of this hearing on next steps to Mars underscores the 
point that human exploration has a goal and a direction. Mars 
is the only human accessible world to study the possibilities 
of either indigenous past life or potential future life. The 
asteroid retrieval mission about which I am talking and which 
was first studied by the Keck Institute for Space Studies 
creates a first step beyond the Moon, the only one that is now 
capable--that we are now capable of performing and the only one 
which we can afford within the current space program budget.
    This mission represents an opportunity to sustain American 
leadership in robotic and human space exploration with 
technological innovation and engineering prowess. While other 
nations dream of duplicating the American achievement of a 
half-century ago, the Administration's new plan has the U.S. 
looking beyond the Moon on a path that will eventually take 
humans to Mars later in this century. The new initiative is not 
a giant-step, Apollo-like crash program; instead, it follows a 
flexible and cost-effective path using stepping stones into the 
solar system. The stepping stones are literally and 
figuratively provided by the near-Earth asteroids.
    A robotic spacecraft using solar electric propulsion will 
rendezvous with a very small asteroid in an orbit that is close 
to Earth's orbit around the Sun. Redirecting that asteroid to 
the desired orbit in Earth-Moon space will take several years 
with the highly efficient but low continuous thrust provided by 
solar electric propulsion systems. The mission will serve as a 
key test, a key technological test, for higher levels of power 
of solar electric propulsion that will be needed for the Moon 
and Mars.
    The asteroid retrieval mission can be done soon with a 
launch perhaps four or five years from now. It depends of 
course on finding a good target but this we can do. Hundreds of 
asteroids this small have already been discovered, although 
they are hard to see and generally have been ignored and while 
observers focus on larger objects. Yet we know there are 
millions of them and a dedicated observation program will find 
enough candidates and the right combination of traits for 
attractive targets for this mission. Increases in the 
observation program, particularly at the Catalina Sky Survey in 
Arizona and Pan-STAARS in Hawaii are expected to increase the 
rate of discovery 5- to 10-fold in a few years.
    The small asteroids under consideration for this mission 
pose no danger to Earth. Even if one did impact, it would burn 
up harmlessly in the atmosphere. In addition, the asteroid 
would be put on a trajectory that does not intercept Earth even 
if control of that spacecraft were lost. Nonetheless, the 
asteroid is big enough to be an interesting object to explore.
    Exploring asteroids is important to understand what they 
are made of and how they hold together. We may someday have to 
divert one. Exploring them and discovering new ones is also 
important scientifically because these small bodies of the 
solar system hold vital clues about the origin and history of 
the planets. Protection and science are two reasons to explore 
but these objects offer one more reason for exploration which 
intrigues many now, and that is prospecting and the potential 
for possible commercial utilization.
    The feasibility of the asteroid retrieval mission caught 
some in the space community by surprise. But the use of solar 
electric propulsion technology, the capture of non-cooperative 
objects in space, the discovery of near-Earth objects, and the 
application of the clever techniques of celestial mechanics 
that make up this mission are all developments that NASA has 
been working--NASA and other space agencies have been working 
on for years.
    The asteroid and lunar orbit may be the first stepping 
stone on the flexible path to Mars. Asteroids and Sun-Earth 
Lagrangian points could be the next, then an asteroid further 
away closer to Mars, then a Martian moon, and then Mars itself. 
I believe this is the direct and only sustainable way to Mars.
    This project will not just unify NASA with science, 
technology, robotic, and human components, but it will unify 
many others globally with a great adventure. Europe, Japan, 
Russia all have asteroid mission plans and solar electric 
spacecraft in operation. They could join in the mission 
development. After an asteroid is in place, even private 
spacecraft developers could be invited to explore and test new 
prospecting ideas there and maybe create a new commercial 
industry for utilization of space resources. Meanwhile, NASA 
again will be leading the world into space moving on to new 
accomplishments on more distant asteroids, perhaps on the 
Martian Moons, and then on Mars itself.
    Thank you.
    [The prepared statement of Dr. Friedman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Friedman.
    I now recognize our next witness, Dr. Spudis, for five 
minutes.

                 TESTIMONY OF DR. PAUL SPUDIS,

                    SENIOR STAFF SCIENTIST,

                 LUNAR AND PLANETARY INSTITUTE

    Dr. Spudis. Thank you, Mr. Chairman. I thank the Chairman 
and Members of this Committee for this opportunity to share my 
thoughts on the appropriate next steps for human exploration of 
space.
    The past 50 years have witnessed some enormous 
accomplishments of our national space program. We have surveyed 
the entire solar system and launched hundreds of spacecraft 
making us more knowledgeable, prosperous, and secure. Despite 
this history of accomplishment, we lack a clear long-term 
direction forward and our space program is withering away.
    To find a sustainable path forward, we must consider the 
utility and purpose of human spaceflight. Although much can be 
accomplished in space using robotics, many tasks require the 
presence of people who combine high-level cognitive abilities 
with intricate manual dexterity. I believe our long-term goal 
should be to possess the ability to go anywhere we choose in 
space to do whatever job or study we can imagine. Such 
capability requires an affordable, extensible space 
transportation system, one built incrementally over variable 
timescales to prevent fluctuations in funding from preventing 
its completion.
    One can imagine two very different approaches to 
spaceflight. One conducts a public spectacle, a one-off flags-
and-footprints mission to some new and exotic destination. The 
other approach uses incremental yet cumulative building blocks 
that enable the gradual extension of human reach beyond low-
Earth orbit. The former produces a media event while the latter 
links capability with progress and creates lasting value. A 
transportation system that can access the lunar surface can 
also access all other points of cislunar space, the domain of 
nearly all the world's satellite assets.
    The experience of building International Space Station and 
the servicing missions to the Hubble Space Telescope have 
demonstrated that people and machines working together in space 
can accomplish much more than is possible through the launch of 
smaller, custom-built expendable spacecraft. Our current 
template of design, launch, use, and eventual abandonment of 
space-based assets can be transformed into one of building and 
maintaining large, extended, and distributed space systems of 
unprecedented power and capability. This capability will 
produce enormous economic and societal return. It will create 
new wealth, not simply consume it.
    To achieve these ends, I believe that a return to the Moon 
to access its--and use its material and energy resources is the 
next best step for human spaceflight. The Moon is important for 
three reasons: one, the Moon is close. It is easily and 
constantly accessible while its proximity permits early 
development before human return using robots remotely 
controlled from the Earth. The Moon is interesting. It retains 
a unique record of its own history and processes as well as 
those of the Earth-Moon system, the Sun, and the galaxy. This 
record gives us insights into the past and future of our home 
planet.
    But most importantly, the Moon is useful. Its material and 
energy resources can break the logistical chains of the Earth. 
Several recent missions have discovered and confirmed abundant 
water at the lunar pole, all close to locations of near 
permanent sunlight. This relationship enables our long-term 
presence on the Moon where we can extract water for use as 
life-support consumables, energy storage, and most 
significantly, to manufacture the most powerful chemical rocket 
propellant known, hydrogen and oxygen. Water, oxygen, energy, 
and rocket fuel are vital enabling assets, provisions that will 
not have to be launched from the surface of the Earth, the 
deepest gravity well of our solar system. Harvesting these 
resources from the Moon creates our first off-planet coaling 
station in space.
    We are not capable of sending humans to Mars now or in the 
near future in either a technical or a financial sense. We need 
a cohesive intermediate goal, one with specific, scalable 
activities and benefits that help assemble a permanent space 
system, a system that will open the way to Mars and all the 
planets. The Moon affords us this opportunity and the incentive 
to create such a system, a transcontinental railroad in space. 
Included with my submitted material is an architecture showing 
how we can incrementally and affordably develop the system.
    We went to the Moon in the 1960s to prove that it could be 
done. We return to the Moon 50 years later to prove that we can 
use its material and energy resources to create new 
capabilities and commerce. A cislunar transportation system, 
developed and powered with lunar resources, will extend our 
reach into deep space and revolutionize the paradigm of 
spaceflight. This effort is not ``been there, done that.'' It 
is a wholly new, untried, and necessary pioneering enterprise 
in space.
    I thank the Committee for its attention. I welcome your 
comments and thoughts and I am happy to answer any questions 
you might have.
    [The prepared statement of Dr. Spudis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Spudis.
    I now recognize our next witness, Dr. Squyres.

               TESIMONY OF DR. STEVEN M. SQUYRES,

             GOLDWIN SMITH PROFESSOR OF ASTRONOMY,

                       CORNELL UNIVERSITY

    Dr. Squyres. Thank you, Mr. Chairman. Mr. Chairman, Members 
of the Committee, thank you for the opportunity to appear 
today.
    The topic of this hearing is the Next Steps in Human 
Exploration to Mars and beyond. My recommendations to the 
Committee today are as follows: first, affirm that Mars is and 
will continue to be NASA's long-term goal for human exploration 
of space; second, at all future milestones on the road to Mars, 
direct the Agency to focus on activities that clearly serve the 
goal of landing humans on Mars, operating there, and returning 
them safely to Earth; third, adopt cislunar space as the next 
milestone whether ongoing studies show that it is possible to 
direct a small asteroid there or not; finally, dictate no 
milestones beyond cislunar space without first assuring ample 
funding to achieve them. I will address each of these in turn.
    The NASA Authorization Act of 2010 stated that ``a long-
term objective for human exploration of space should be the 
eventual international exploration of Mars.'' I agree. In fact, 
in my view Mars should be the long-term objective for human 
exploration of space weather carried out internationally or by 
NASA alone.
    Alone among the planets, Mars is enough like Earth that we 
can imagine life once taking hold there, as a vast and growing 
body of scientific knowledge shows that the Martian surface 
once possessed many of the essential ingredients that are 
required for life. So sending human explorers to Mars to learn 
whether life ever emerged there is a goal that is worthy of a 
great national space agency.
    The most useful milestones on the way to Mars are the ones 
that, when met, help retire risks that will be faced on the way 
to the Martian surface and back. In the 1960s we didn't go to 
the Moon all at once. Instead, the capabilities to land humans 
on the surface of the Moon and return them safely to Earth were 
built up systematically over a series of Mercury, Gemini, and 
early Apollo missions. I am convinced that the even more 
challenging capabilities that will be necessary to achieve a 
similar goal of Mars must also be built up step-wise. And at 
each step along the way it will be crucial to examine all the 
activities that might be conducted critically and pare them 
down to the minimum necessary to assure progress towards Mars.
    Many of the most important capabilities that are going to 
be necessary for human missions to Mars can be developed in 
cislunar space. This work can be done far enough from Earth to 
progress towards a true deep space capability can be 
demonstrated but close enough to Earth that a safe return in 
the event of an anomaly is facilitated. Moreover, given the 
performance capabilities of the Space Launch System and the 
Orion crew capsule, cislunar space is the only significant 
destination below low-Earth orbit that can be reached for the 
foreseeable future. It is the sensible next step simply by 
process of elimination. And I reach this conclusion whether 
NASA's ongoing efforts to study redirection of a small asteroid 
to lunar orbit bear fruit or whether they do not.
    After cislunar space, the choice of the next milestone 
becomes more difficult. Personally, I am not persuaded that any 
physical destination like the lunar surface, an asteroid, or a 
Martian Moon is truly necessary to get to Mars, function there 
effectively, and return safely. Others on this panel may 
disagree. But while we can debate the relevant merits of such 
destinations, my most important message to this Committee today 
is that I believe that no realistic step beyond cislunar space 
should or can be usefully identified right now.
    The fundamental barrier to making an intelligent choice 
today is that NASA is being asked to do too much with too 
little. This overtaxing of the Agency is chronic, it is severe, 
and it is getting worse. It is manifested clearly even in 
NASA's near-term plans.
    To be more specific, the current development schedule for 
SLS and Orion calls for a flight rate that is so low that I 
believe it is a cause for serious concern. In a fiscal 
environment where even next step to cislunar space cannot be 
carried out at an adequate pace, I feel that for Congress to 
dictate any subsequent milestones today would be unwise. Unless 
NASA's funding is increased substantially, any attempt to 
specify milestones beyond cislunar space today would amount to 
an unfunded mandate, and if NASA is directed to do something it 
is not funded to do, I predict that the result will be wasted 
effort and a delay in achieving the ultimate goal of humans to 
Mars.
    I would like to conclude my opening remarks today on a 
positive note by pointing out that the solution to the mismatch 
between NASA's aspirations and its budget may be international 
partnerships. This was the case for establishment of a 
permanent Earth-orbiting laboratory and the International Space 
Station that resulted is a magnificent example of what space 
agencies can accomplish when they work together.
    If no major funding increase for NASA can be found, then I 
believe that the Agency should aggressively seek out 
international partners for the human exploration to Mars, but 
if that happens, I feel that neither Congress nor the 
Administration can expect to dictate what the next milestone 
after cislunar space should be unilaterally. Instead, that 
milestone will have to be negotiated fairly and equitably with 
those international partners.
    Again, thank you for the opportunity to appear today.
    [The prepared statement of Dr. Squyres follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Squyres.
    I now recognize our final witness, Mr. Cooke.

                TESTIMONY OF MR. DOUGLAS COOKE,

              OWNER, COOKE CONCEPTS AND SOLUTIONS

    Mr. Cooke. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to discuss this exceedingly 
important subject. I strongly believe that an enduring, long-
term strategy for human spaceflight should be developed now 
with the carefully defined missions that significantly 
contribute to long-term goals. This strategy does not exist 
today. Once developed, national will is crucial to sustain the 
strategy with budget stability; otherwise, we may watch other 
space-faring nations pass us by when the United States should 
have led the way.
    We first need to address the questions initially without 
regard for specific budget. What are the geopolitical goals 
that we want to achieve with human spaceflight? What is this 
country's long-term vision for future human space exploration? 
And how do we collaborate with international partners to 
achieve this vision? If crafted properly, an organized process 
would obtain and prioritize the exploration objectives from a 
spectrum of stakeholders. The strategy would then address 
appropriate objectives for each destination, including those 
for advanced scientific discoveries, development of critical 
technologies, and preparing for Mars exploration and others. A 
widespread advocacy for the strategy would occur with 
stakeholder participation in the process.
    There is a broad international consensus that Mars is a 
human exploration destination that we should ultimately aspire 
to. To develop this strategy, we should ask: what is needed to 
send people safely to Mars in capabilities, technologies, human 
research, et cetera? A preferred path could then be chosen 
through a series of carefully selected missions and 
destinations that must effectively address these exploration 
goals and objectives.
    Regardless of the actual sequence of missions, the current 
development of the Space Launch System and Orion MPCV are 
critical to success for the strategy. The strategy must be 
flexible with the anticipation that it should be responsive to 
discoveries, budget realities, and emerging technologies.
    Asteroids are certainly very interesting objects for 
scientific study. They can provide information on the formation 
of our solar system, and cataloging them is important to 
understand their threat to Earth. The current President budget 
request included a challenge to retrieve an asteroid and move 
it to near-Earth space to be investigated by astronauts. It is 
a clever concept and such a mission would undoubtedly 
demonstrate technologies and capabilities. However, there is 
not a recognizable connection to a long-term strategy. It does 
not appear to be based on consultation with stakeholders, nor 
are there visible opportunities for international 
participation, although I am told these are in work. It appears 
to be a very complex mission with the potential for growing 
more complex and more costly. As currently defined, the mission 
definition does not convey a mature concept that should be 
supported with significant funding without further 
understanding of its value to long-term human exploration 
strategy competing with other mission destinations. I believe 
that robotic missions are currently a more cost-effective way 
to study asteroids.
    In preparing for Mars, the next generation of explorers 
must learn how to survive in other hostile environments. The 
Moon is an alien world with partial gravity like Mars, yet is 
only a 3-day journey from Earth. Human lunar exploration will 
provide opportunities to test technologies, to experience 
living and working on another planetary surface, to use lunar 
resources, and to identify commercial opportunities. The Moon 
is a truly unique nearby destination where scientists can learn 
about the history of the inner solar system over the past 4.5 
billion years. We now have incredible new information derived 
from recent robotic missions--LCROSS, LRO, and GRAIL--that can 
help guide further lunar exploration. I believe the United 
States should provide leadership in exploring the Moon as an 
important step in any long-term exploration strategy.
    Relevant, near-term missions to Mars may be closer than 
previously thought. For instance, the mission proposed 
byInspiration Mars, while I think it is very challenging, may 
provide such an opportunity, more difficult but on the order of 
what would be needed for a mission to one of the more 
difficult-to-reach asteroids, a mission to the fascinating 
Moons Phobos and Deimos are possible. Mars surface exploration 
is the ultimate goal that can be reasonably envisioned today.
    I propose that the following steps be taken to develop a 
unified and enduring U.S. human space exploration strategy: 
conduct an open process including stakeholders to develop the 
strategy and exploration objectives; reestablish lunar 
exploration as a valued near-term part of the strategy; 
identify other near-term mission opportunities that most 
effectively contribute to long-term exploration goals; identify 
opportunities to combine resources and capabilities with 
international partners to achieve these objectives; and 
endeavor to ensure U.S. leadership in human space exploration.
    Once again, I thank you for inviting me here to get my 
views. I also want to thank this Committee and the Subcommittee 
and your staff for a continued bipartisan support for human 
spaceflight. I welcome your questions.
    [The prepared statement of Mr. Cooke follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Mr. Cooke.
    A vote has been called. The Committee will recess until ten 
minutes after last vote. The Committee stands at recess.
    [Recess.]
    Chairman Palazzo. The Subcommittee on Space will come back 
to order. I want to thank again the witnesses for being here 
and being available for questioning today. I also want to 
remind Members that Committee rules limit questioning to five 
minutes.
    The Chair will at this point open the round of questions. 
The Chair recognizes himself for five minutes.
    Mr. Cooke, Congress has consistently affirmed that NASA 
should develop an exploration architecture to go to the Moon, 
Mars, and beyond on a timetable determined by available 
funding. NASA receives roughly 17 billion a year and 
approximately 3-1/2 billion of that is devoted to exploration 
systems and support infrastructure and even more under the 
previous Administration. Last month, the NASA Administrator 
indicated that we cannot return to the Moon because NASA does 
not have the funding to do so, arguing that NASA has no money 
for a lunar lander. My question is: could NASA establish an 
exploration architecture and development profile that could 
accommodate a lunar architecture under the current funding 
profile if schedule was not a driver?
    Mr. Cooke. There are a couple of factors that I would like 
to bring up. One, the existing profile is a flat profile as I 
understand it still with no inflation, which is problematic. So 
I think the situation would be improved if there were even 
inflation. And I think we were seeing that back when I was at 
NASA. I think NASA can definitely put together architectures 
that fit a funding profile. We have done it--we have always 
done it.
    I guess a question I would have is if an asteroid retrieval 
mission is going to cost $2 plus billion according to the Keck 
study, where is that money coming from? Is that new money? If 
it is not new money, it is coming from somewhere, and so is it 
coming out of existing human spaceflight programs? Is it coming 
out of technology? And if $2 billion--plus billion is 
available, could it be better spent? Could it be better spent 
on an upper stage for SLS that brings it to full capability or 
could we partner with internationals to develop--collaborate 
and develop a lander for the Moon?
    If we have a long-term exploration plan, as I was making a 
plea for, you understand--you can understand how those things 
fit into it and what is the best expenditure of funds. So I 
don't know specifically what the plans are and where the money 
is coming from for the asteroid retrieval mission, but it seems 
that an alternative would be to do--would be to put that money 
toward lunar exploration.
    Chairman Palazzo. Do you believe it is necessary to develop 
a lander in parallel with the development of SLS and Orion or 
could the lander be developed at a later date?
    Mr. Cooke. I believe that in everything we do we phase our 
spending, and in fact even in the SLS program as we initially 
laid it out in 2011, things were phased. We chose the 
components that we did. We knew we had to get the core stage 
built, which was new. We--everything--every choice that we made 
in terms of the engines and boosters and that sort of thing 
were phased in order to fit under the funding profile. So we--
that is something that is always done is you phase your 
developments to fit under that line. So certainly, as some of 
the costs come off of development on a rocket or efficiencies 
are found in space station operations, for instance, money like 
that could then be phased into development of a lander. It 
doesn't have to be at the same exact time. We don't--I mean we 
phased money and spending to develop as we could.
    So driving towards your point, you can phase your 
developments within a funding line to achieve long-term what 
you are looking to do.
    Chairman Palazzo. Now, Exploration Systems Architecture 
Study has considerable international input. The witnesses 
before us today agree that international cooperation will be 
necessary for any mission. Understanding that you no longer 
work for NASA, do you know whether international input was 
sought for the asteroid retrieval mission?
    Mr. Cooke. I am not aware that it was. In fact, one of the 
concerns I have is that it seems like the process is reversed 
on this asteroid retrieval mission where the mission is 
announced and then you go figure out the rationale and how to 
partner on it. And so I am not aware or have seen evidence that 
there was international consultation going into the 
announcement.
    Chairman Palazzo. And my last question for Mr. Cooke, the 
cancellation of the Constellation Program was a huge blow to 
our Nation's exploration program and created a significant 
uncertainty for our industry partners. How can Congress ensure 
that the SLS and Orion are not political footballs in the next 
Administration and are part of a stable, long-term plan for 
exploration?
    Mr. Cooke. In my written testimony I made the point and I 
made it briefly in my oral today that we have looked at various 
scenarios and what steps could be taken in destinations and 
missions in achieving Mars landings down the road. The SLS and 
Orion are critical components no matter what that path ends up 
being. If we are going to travel beyond Earth orbit, you need 
that capacity in a launch vehicle and you need a deep space 
crew vehicle with the systems designed for those kind of 
missions that are totally different than what is needed--they 
are a step well beyond what is needed for to and from Earth 
orbit I will point out as well.
    Chairman Palazzo. Thank you. I now recognize Ms. Edwards 
for five minutes.
    Ms. Edwards. Thank you, Mr. Chairman.
    And thank you very much to our witnesses. I really 
appreciate your patience today.
    I want to start with Dr. Friedman. Dr. Friedman, many of us 
have had questions about the scientific capability that we gain 
in terms of asteroid retrieval mission and how that then 
contributes to going to Mars. And so I wonder if you could very 
quickly give us a sense of what the science is that is so 
different than what we would get from Moon--from, you know, a 
lunar landing and mission if that were the interim step that 
was chosen?
    Dr. Friedman. Yes, thank you for the question. First of 
all, it is important to understand that of course the mission--
the asteroid retrieval mission wasn't selected for--or its 
rationale is not for science. If it was, then we have a robotic 
sample returns and we do missions to asteroids for science 
purposes. This is part of the human spaceflight program and its 
primary rationale is a step for humans to take in space.
    Having said that, of course, the aspect of what humans 
could do on an asteroid to delve into the surface to bring 
back--to conduct experiments related to future resource 
utilization, to perhaps drill a little bit to do experiments 
related to asteroid science would contribute greatly not only 
to the knowledge about asteroids themselves and their 
relationship to solar system studies but also to what the 
structure and composition and strength of an asteroid is and 
the diversity of them so that we can--someday, we might have to 
deflect one for purposes of planetary protection.
    So there will be a lot of human-related science experiments 
on such an asteroid retrieval mission, but it is important to 
understand that the real reason for doing it is the human 
capability of being able to go beyond the Moon, to be able to 
go on longer flight time missions, to be able to take larger 
systems with them for longer life support as a first step 
beyond the Moon and then to more subsequent larger steps after 
that.
    Ms. Edwards. Thank you. So I am trying to appreciate then 
the critical technologies that are necessary with whatever the 
interim step it is that we choose, whether it is an asteroid 
retrieval or it is a lunar landing and lunar mission. And so I 
wonder if each of you very quickly could outline what those 
critical technologies are so that when we are trying to figure 
out how do we make the investment in next step to Mars that we 
are investing in all the right critical technologies whatever 
the chosen interim destination? And so if we could just kind of 
go down the line, that would be great.
    Dr. Friedman. Well, I think the fundamental one is related 
to life sciences and life support for human spaceflight. Once 
you are outside of the Earth's radiation environment and into 
deep space, both the length of the system and microgravity and 
the radiation exposure are key questions. I think that is the 
dominant one for long duration human spaceflight.
    The other big technology that unfortunately is going to 
have to wait for more robotic missions to Mars is the entry, 
descent, and landing on Mars. That is huge. That is an unsolved 
problem. It is not going to be--you can't learn it on the Moon, 
you can't learn it on an asteroid; you can only learn that on 
Mars itself. And I think what we are doing in the robotic 
missions for exploration of Mars is the other key technology. 
Solar electric propulsion technology is a long duration flight, 
but that we do know how to do.
    Ms. Edwards. So could I hear from the other witnesses 
whether or not it is a lunar mission or an asteroid retrieval?
    Dr. Spudis. Well, one of the key things that you want to 
develop to go to Mars, in fact, to do any kind of planetary 
exploration is the ability to solve some of your logistical 
problems, and that means learning how to use the materials and 
energy that space have to offer rather than bringing everything 
we need with us from the Earth. And I contend that the Moon is 
an ideal place to do this because it is close enough that we 
can begin to start doing this robotically with teleoperated 
machines that could basically pave the way for human arrival 
later.
    Now, survival on a planetary surface--all planetary 
surfaces are hostile. There is no second Eden. There is no 
second Earth. They are all required--require us to protect the 
crew from radiation, from the environment, and to create our 
own life-support consumables. That can be done on the Moon and 
that can be done--in fact, a lot of the key technologies we 
would use there we would use on a trip to Mars eventually 
anyway.
    The other main technological area is learning how to 
effectively explore planetary surfaces, and that includes using 
both humans and machines synergistically so that each one 
builds on the value--on the benefits of the other. That is 
another experiment that can be done on the Moon because it is a 
little planet of great complexity. So that is the way I look at 
it.
    Ms. Edwards. Thanks. And could we hear very quickly from 
Dr. Squyres and Mr. Cooke?
    Dr. Squyres. Yeah, just very briefly I agree with Dr. 
Friedman that the two most challenging technologies required to 
send humans successfully to Mars and bring them back are, first 
of all, deep space, life-support, and habitation; and second, 
entry, descent, and landing to the Martian surface and assent.
    I will point out that to me the connection between 
particularly the asteroid retrieval mission, which involves 
proximity operations with a rock that would fit comfortably 
into this hearing room, I see no obvious connection between 
that and any of the technologies or capabilities that are 
required for Martian exploration.
    Mr. Cooke. I would agree with most of everything that has 
been said. I would add that the Moon is unique in that it is a 
planetary surface that has partial gravity like Mars. It has a 
dust environment that you have to learn to deal with. You can 
develop surface operational techniques in a partial G 
environment in space suits learning those techniques and how to 
explore and how to get the most out of the missions. So it--and 
we--in 2006 we had a conference that laid out objectives for 
the Moon and there are many things that you could do there that 
would contribute to long-term human exploration.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Chairman Smith for five 
minutes.
    Chairman Smith. Thank you, Mr. Chairman.
    And I, too, want to thank our witnesses today. They have 
just been excellent in what they have said in their responses 
to the questions that have already been addressed to them. 
Several more questions though I would like to ask, and the 
first one, Mr. Cooke, is addressed to you. This is asking you 
to speculate a little bit, but I have really not heard anyone 
answer the question as to why some NASA officials would ignore 
their own experts--that is those on the Small Bodies Assessment 
Group--and sort of forge ahead haphazardly with this asteroid 
retrieval mission. Do you have any idea why they would have 
chosen to do that?
    Mr. Cooke. Well, I don't have any direct information. I am 
concerned that it was announced without a process that I 
outlined earlier.
    Chairman Smith. Yeah.
    Mr. Cooke. I think that a healthy process gets inputs from 
your stakeholders and--in terms of objectives and long-term 
goals and that helps you defined what missions are. I don't see 
that that has happened here and I don't know exactly--I have no 
first-hand information--
    Chairman Smith. Okay.
    Mr. Cooke. --as to how that occurred.
    Chairman Smith. Other than just a bad judgment call or 
something like that?
    Mr. Cooke. Well, I mean to me it would seem that if we are 
going to go after an asteroid, it would have--it would be a--
there would be science objectives and it has been said publicly 
that this is not a science-driven mission. And so I don't see 
the stakeholder objectives having driven a mission that 
should--you would think of benefit to science.
    Chairman Smith. Thank you, Mr. Cooke.
    Dr. Spudis, there are already two asteroid--robotic 
asteroid retrieval missions by NASA and by Japan who actually, 
as you know, retrieved an asteroid in 2010 I think. Is there 
any more to be gained by an astronaut actually being on an 
asteroid? And we are talking about an asteroid literally the 
diameter of the table you all are sitting on, 7 to 10 meters. 
And why can't those robotic missions achieve the same goals as 
an asteroid would? A while ago Dr. Friedman said, well, an 
astronaut could drill down into the asteroid, but a robot can 
do that, too. But is there any value added to having an 
astronaut land on a 7 to 10 foot diameter asteroid over a 
couple of robotic----
    Dr. Spudis. There might be but it is not clear to me at 
this stage that there is. One thing that keeps getting 
overlooked in terms of asteroids is that right now we have 
roughly 45,000 near-Earth asteroids right here on Earth in the 
terrestrial meteorite collection.
    Chairman Smith. Um-hum.
    Dr. Squyres. And in fact the largest one is a meteorite 
named Hoba, which is three meters across and 60 tons. It has 
been--it was found by a farmer digging in a field in Africa and 
can't be moved because it is too heavy. So we actually have an 
NEO right here on the Earth right now for study. It is a nickel 
metal meteorite.
    Fundamentally, meteorites are fairly homogenous. That is 
one of the interesting things about them. Most of the 
meteorites are chondrites, which mean they are debris left over 
from the accretion of the solar system and they have the same 
chemical composition. They have been heated, they are not 
heated to varying degrees, and they are--one of the reasons we 
use them as standards in planetary science is because we can 
compare planetary compositions to meteorites because they don't 
vary very much.
    Now, one of the key assumptions of a human doing field 
science either on the Moon or on the Earth or anywhere else is 
categorizing the diversity in understanding the processes that 
he is uncovering by sampling, and that is applicable on the 
Moon, it is applicable on Mars, it is applicable on the Earth; 
it is not necessarily applicable to a homogenous rock or a 
homogenous rubble pile.
    So the answer to your question is I think we would learn 
something. No space mission is valueless. But in terms of what 
we would actually learn in comparison to a robotic sample 
return, I don't think we would learn that much more.
    Chairman Smith. Okay. Thank you.
    And Dr. Squyres, last question, as far as our efforts if we 
were to embark upon this asteroid retrieval mission is there 
any reason to believe that our looking for a nonhazardous 7-
meter-diameter small asteroid is going to help us in our 
efforts to try to detect larger and more dangerous asteroids 
that, if they were to impact Earth, could do us a lot of damage 
or is there a better more direct way to try to detect those 
types of asteroids?
    Dr. Squyres. The kind of search techniques that one would 
use to find a target for the asteroid retrieval mission will 
inevitably turn up many, many other objects, some of which will 
have characteristics that will make them considerably more 
hazardous to Earth than the target that could actually be 
deflected and placed--redirected into orbit around the Moon. So 
I believe that the--one of the truly valuable components of the 
asteroid retrieval mission is the search for a target because 
not only will it conceivably come up with a target that you can 
actually redirect but it is inevitably going to find a whole 
bunch of other rocks that, on ensemble, maybe much important--
much more important both as scientific targets and as objects 
for future study. But as a threat itself, I think the object 
you are going to find, as Dr. Friedman has pointed out, is not 
something that we need to worry about.
    Chairman Smith. Okay. Thank you. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Posey for five 
minutes. Sir?
    Mr. Posey. Thank you very much, Mr. Chairman.
    You know, so much of what we gain from space every day is 
unappreciated by the general public. We all know that. And I 
just think about the tragedy yesterday, without the weather 
satellites, the early warning that we had, how horrible that 
could have been if it had been more spontaneous how much more 
horrible it had been--it could have been.
    I think it is unfortunate that we don't really have any 
space plans right now that inspire the general public. For 
better or worse, the public that I am familiar with is 
absolutely totally under-excited about the prospect of going to 
an asteroid, and I think we need to have a more robust program. 
I think I agree with three out of four of you to make it a 
national priority.
    And, you know, funding is always the issue and funding is 
the issue because the NASA budget, as small as it is in 
comparison to other budgets, is still the biggest pinata. It is 
the one they go at for totally nonrelated programs because all 
the Members of the body are not sold on the necessity of it as 
a matter of return on investment, as a matter of national 
defense, as a matter of survival for our species ultimately.
    And my question to the four of you would be how you think 
we could better move this space message down the field among 
our colleagues in the general public? If the general public was 
more excited about it, Members of Congress would be more 
excited about it and we wouldn't be really limited to 
underfunding even the smallest possible missions. So we can 
start with you, Mr. Friedman, and go on down the line until we 
run out of time.
    Dr. Friedman. Yes, thank you. That is a key question and it 
is one that I have worked on my whole career as Executive 
Director of the Planetary Society until I retired from that 
position. Public interest is key. It is actually the thing more 
than science, as I tried to say, more than any other aspect 
that has gotten me so interested in this asteroid retrieval 
mission because even in the last Administration with a full and 
dedicated commitment to building a lunar program and going back 
to the Moon, the lunar landing, we forget, slipped all the way 
out to 2028 and that is if the funding had been maintained, 
which it wasn't going to be maintained. Where would it have 
been by now in the 2030s?
    The joy of the asteroid retrieval mission I think has got 
me so excited is is we actually begin the process in just a 
couple of years from now. We are going to be looking for the 
asteroids this year. We are going to be launching the mission 
to the asteroid in three or four years from now. We are going 
to be towing it in an exciting venture that people will be 
excited about, something never been done in the history of the 
space program before. We will be engaging the public and human 
spaceflight, prepping the target in the way we did with Gemini 
and Mercury before we went to Apollo. And we will be achieving 
human missions to the destination in a much-sooner timescale 
rather than having to wait two or three decades. I want to get 
to Mars quickly. I made that clear. But this is the only way I 
think that we can engage the public and maybe drive up the 
money that goes with that.
    Dr. Spudis. It is an interesting question because the 
premise sort of assumes that, unless you have an exciting 
activity, that people won't support something, and yet our 
society is filled with valuable, critical things that we all 
agree are needed that people don't get excited about. And so I 
think really your challenge is to show the public that they are 
getting value from the money spent. And that is why I believe 
that building an extensible, reusable system, a space-faring 
system that allows us to do all the things we want to do at 
various spots in space is the way to go. And one way to do that 
is to go back to the Moon and learn to use those resources. 
That is the way I advocate. There may be other solutions.
    But fundamentally, I think the key thing we need to do to 
become a space-faring people is to develop that system. The 
things that we get from that, the benefits from that will be 
self-evident. I mean right now you mentioned the weather 
satellites. There is communications. We depend on space assets 
for many aspects of our modern technical civilization, so what 
we really seek is public support, not necessarily excitement.
    Dr. Squyres. I think that the best way to maintain public 
support is with an unwavering focus on Mars as the destination. 
The night that the Curiosity rover landed on Mars, thousands of 
people turned out in Times Square in New York City at 2:00 in 
the morning just so they could watch it on the big screen. It 
has captured the public imagination. It has captured public 
interest. And so I think the best way to maintain that interest 
is to maintain an unwavering focus on Mars as the ultimate 
destination and show how each milestone along the way is 
connected to reaching that destination.
    Mr. Cooke. I would agree with that. And the Mars program 
has done an incredible job of making people aware of what is 
happening and getting them excited about it, and it is a model, 
I think, for what we do. I think a key aspect of this is having 
a plan that people recognize. We don't have one right now, a 
long-term plan on how to get to Mars. I think we need one with 
defined steps that are exciting, that we know will make a--will 
have achievements that contribute to the ultimate goal. And if 
we have a wide range of stakeholders including the science 
community and including the public and including media, 
including academia and private industry as a part of the--of 
defining that set of objectives and goals, then you build in 
advocacy from those groups that also are part of the plan.
    Mr. Posey. Thank you. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Rohrabacher for five 
minutes.
    Mr. Rohrabacher. Holy cow. Thank you very much, Mr. 
Chairman.
    I have been--I would just like to ask a fundamental 
question here because we have been talking about mission to 
Mars, okay, mission to Mars and different approaches to mission 
to Mars and what--I would like to ask the panel whether or not 
they think a mission to Mars is worth the cost or not. I mean 
if we do a mission to Mars--and correct me if I am wrong--we 
will have to defund most of the--I mean if we are going to do 
it now, start now and go directly into a mission to Mars, we 
are going to have to defund, you know, asteroid detection and 
then deflection. I mean we might as well forget that. I mean 
that is expensive. Debris cleanup which unless we don't--unless 
we clean up the debris, of course, we may end up having our own 
use of near space being cut off from the future satellites 
because debris is knocking our satellites out of the air, no 
more GPS communication satellites, et cetera. Or how about 
space astronomy, which we know there is some very important 
projects moving forward with various telescopes that could give 
us a really in-depth view of the universe.
    You know, reading the--I mean unless we think that the 
tooth fairy is going to leave all the money under the pillow in 
order to accomplish a mission to Mars, is it really worthwhile, 
the vast expense and the canceling of programs like this in 
order for us to take off and start heading on a Mars mission 
now? I will just go right down the line. That is fine.
    Dr. Friedman. Well, thank you, Congressman. You and I have 
been Mars supporters for a long time but I think you are quite 
right in asking exactly that question. Certainly, I haven't 
heard any of us advocate canceling programs in order to go to 
Mars right now. I tried to make clear in my statement that we 
not only don't have the money to do it but I don't think we 
have the complete technical knowledge or the scientific 
understanding. What we are building up with the robotic mission 
to Mars, what we are building up with taking humans into more 
complex endeavors in space, but as--and technical steps has to 
be done. We go to Mars when we can afford it. I think that is 
one of the things that----
    Mr. Rohrabacher. And we can't afford it now. Next? Thank 
you for that answer.
    Dr. Spudis. There--you can sort of imagine two ways that 
you might go to Mars. And one way you could go to Mars is like 
we went to the Moon with Apollo. We design a spacecraft, we 
develop an architecture, we launch everything that we take--we 
need for the voyage from the surface of the Earth, an 
enormously difficult and mind-bogglingly expensive thing to do 
considering how much it costs to launch stuff and you need at 
least one million pounds in LEO to go to Mars with chemical 
propulsion. The other way that you might go to Mars is to have 
it be a logical extension of an expanding space-faring system, 
so you build it with building blocks. You start with small 
pieces that basically access the various spots in cislunar and 
then go to Mars when you have that system in place ready to 
support a Mars mission.
    Mr. Rohrabacher. But that is not just saying that we are 
now going to start--this is our project, we are starting going 
to Mars and that is how we are doing it.
    Dr. Spudis. No, it is----
    Mr. Rohrabacher. And you said you build it into your 
existing projects.
    Dr. Spudis. Yeah, it is one of the destinations that you 
plan to----
    Mr. Rohrabacher. So I take it your answer to my question is 
now, we should not start on a way to Mars right now as a 
project on its own?
    Dr. Spudis. Yes, sir.
    Dr. Squyres. Despite the fact that I have spent my entire 
career devoting my efforts to robotic exploration of the 
surface of Mars, I am personally a strong supporter of the 
eventual human exploration of Mars. Two reasons: first, humans 
are far more capable explorers then robots are. What our 
magnificent state-of-the-art Opportunity rovers accomplished in 
9-1/2 years on Mars, Paul Spudis, who is an experienced 
geologist, could have done in a good week.
    Mr. Rohrabacher. Yeah, I think we all agree that eventually 
human beings are going to go to Mars and we are--because we are 
on this Committee, we love that vision and hopefully it may be 
in our lifetime maybe, but eventually isn't the question. The 
question is should we start right now a program at NASA that is 
engaged in spending significant sums of money that specifically 
as a Mars--manmade Mars mission?
    Dr. Squyres. My answer is yes in the following sense----
    Mr. Rohrabacher. Okay.
    Dr. Squyres. --that the next logical step, I believe, on 
the road to Mars is to reestablish our capability to operate in 
orbit around another object, specifically the Moon----
    Mr. Rohrabacher. Um-hum.
    Dr. Squyres. --and that is the next logical space--next 
logical place for human spaceflight, and I think we should 
embark on that as soon as possible.
    Mr. Rohrabacher. Okay. And that was as part of a Mars 
overall--
    Dr. Squyres. To eventually get us to Mars, yes.
    Mr. Rohrabacher. I think we can do some of these things 
without necessarily having the Mars in the background but, as 
we just heard, building it into a program. What about yourself?
    Mr. Cooke. I would submit that we are already on that path 
in certain ways. It is not necessarily a well-defined path but, 
for instance, everything that we learned from Mars robotic 
missions is applicable to our knowledge base that contributes 
to what we need to know to go to Mars. I would say also that 
the work that is being done on International Space Station 
right now in terms of understanding human frailties and how to 
address those, many of those in fact that human research 
program is aimed at what you need to know about people and 
their ability to survive in order to go on long missions like 
to Mars.
    Mr. Rohrabacher. Right.
    Mr. Cooke. So I would say we are already on that path that 
needs to be more coordinated and to understand the intermediate 
steps better. And another part----
    Mr. Rohrabacher. And would you then suggested that we 
should be channeling the money out from this asteroid detection 
and perhaps a debris cleanup and--or defund the--for example, 
the astronomy projects we heard about? You would then be 
supportive of channeling that money into a direct program that 
is going to Mars?
    Mr. Cooke. I would not stop all these programs. It is a 
matter of priorities and we----
    Mr. Rohrabacher. That is right. It is a matter of 
priorities.
    Mr. Cooke. And we need to establish in light of a well-
thought-out, long-duration human spaceflight plan that is 
coordinated with robotic missions and coordinated with these 
other things to establish what steps can be taken when. It is 
not all or nothing in my opinion.
    Mr. Rohrabacher. Mr. Chairman, thank you very much for 
having this hearing and I believe that the last gentleman was 
right. We have to establish our priorities, and if we try to 
prioritize something that today has not come, we are doing a 
big disservice to the young people who are depending on the 
technologies that we can put in place right now and utilize if 
we end up not having the astronomy or the debris cleanup that 
we need to utilize space simply because we have mission 
unaccomplishable in mind in terms of Mars. Thank you very much, 
Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Schweikert for five 
minutes.
    Mr. Schweikert. Thank you, Mr. Chairman. And in some ways 
the extension of where Dana was going, all right, let's deal 
with sort of the reality of our world up here. I mean we have 
a, you know, government that is being consumed by mandatory 
spending, you know, our entitlement state. You know, it is 
just--it is math. It is not political. It is the reality of 
where we are at.
    So I come to the four of you gentlemen. You are all 
brilliant. You all have your expertise, but if you listen to 
each other, you all have very different visions. If I came to 
you and said help us build a box of decision-making with the 
resources we actually have, I am not asking you what you think 
it should be; first, what would you do to analyze saying this 
is what resources, this is our timeline, how would you build 
that decision-making model? Start on my left, and it is more do 
I need to put all of you in a room and the last man standing 
wins? Do--is it--I, you know, what is the appropriate process 
here?
    Dr. Friedman. Well, if we use that approach, I am at a big 
disadvantage so I would rather not--I will try some other one. 
The mission to the asteroid, which I have been speaking about, 
doesn't replace missions to the Moon or mission to Mars. It is 
part of a step of technology development and capability in 
space. The mission--the only mission it replaces is the one 
that was going to empty space, lunar orbit.
    Mr. Schweikert. Let me sort of rephrase my box on the 
question.
    Dr. Friedman. Okay.
    Mr. Schweikert. Do we actually have both, in your opinion, 
a structure between those of us and Congress, those who are the 
expertise in space and NASA and the exploration world--I am 
sorry; we have a lot of echo coming--to say here is what we 
have resources for, here is what is rational within that, here 
is where we are going technology on the curve, here is how we 
lay it out.
    Dr. Friedman. Without taking into account sequestration, 
which I don't understand, I think you have the existing program 
right now could take these first steps and accomplish the SLS 
Orion asteroid retrieval, humans taking a first step beyond the 
Moon in the existing program.
    Mr. Schweikert. Doctor?
    Dr. Spudis. In order to figure out how to get where you are 
going, you have to know where you are going to begin with. And 
I look at as--I looked on it as your job as part of the 
national leadership to sort of set the long-term strategic 
direction. How we get there is a way--is an implementation 
decision. In the way you--you should oversee that but I don't 
think Congress should necessarily define it. What you should do 
is ask for specific technical advice and then weigh the options 
and then make your decisions on that basis.
    I--you know, I wish I could say there is some magic bullet 
that I can give you guys that would tell you instantly that 
this is the path we need to follow and there you would be. We 
all have different views on how to get there. We all want to do 
that. But my basic observation is that if you craft a program 
with small incremental steps that all work together, 
eventually, you can build any kind of capability you want under 
any kind of budgetary environment because effectively you are 
building it with small steps. You are not trying to take big 
chunks out of it.
    Dr. Squyres. Two messages, sir. The first one is that I 
believe that all four of us would agree that the logical next 
step is lunar orbit. It is going there to reestablish the 
capability to operate in deep space and to do the kinds of 
tasks that are going to be necessary for any of the pathways 
that we are talking about. So all of us, I believe, agree on 
the next step: orbit the Moon. Okay.
    Beyond that, my plea to you, my heartfelt plea is please do 
not dictate--please do not mandate another step for NASA beyond 
lunar orbit unless there is ample funding to pay for it. As I 
remarked in my opening comments, that would amount to an 
unfunded mandate, and that is the bane of government agencies. 
What that would result in, I believe, would be dilution, 
dispersion of efforts, wasted effort, and eventually is going 
to take longer to get to where we want to go.
    Mr. Cooke. Once again, I think that we need to have a well-
established, long-term plan that is derived by stakeholders, 
and we all understand what it is so we know what steps we can 
take and we need to look at the near-term budget run-out and 
figure out what is the best expenditure of those funds in 
making our way down that path and come up with a preferred path 
but understand what constraints you have and try to work within 
those bounds.
    Also as a part of this we need to understand what exit 
criteria we have for programs. That is something we don't do 
most often because we have a program, we want to keep funding 
it. But there is a time when you get to a point of diminishing 
returns in a program and then you say, well, we want to make 
these next steps so you free up those funds to go to those next 
steps. So there is--there can be logical paths.
    Mr. Schweikert. So also the willingness to cancel something 
once it has either lived its life or----
    Mr. Cooke. Right.
    Mr. Schweikert. --not going anywhere.
    Mr. Cooke. So that we can invest in what comes next.
    Mr. Schweikert. All right. Thank you, Mr. Chairman. I yield 
back.
    Chairman Palazzo. All right. Thank you. At this time, we 
are going to go into a second round of questions if there is no 
objections. None being heard.
    My first question is are--and since we have been talking 
about an asteroid retrieval mission, we have also been talking 
about how we are going to get back to Mars and the Moon seems 
to be, I guess, the majority consensus of--would be a good 
first step in that direction. My question is are you aware of 
any other countries that are trying to get to the Moon right 
now? And if so, what countries could they be and what are their 
expectations? What is driving their lunar mission? And that is 
for everyone and we will start with Dr. Friedman.
    Dr. Friedman. Well, Russia has two lunar missions they are 
planning in this decade but they are both robotic and they, 
other than that, vaguely talk about humans going to the--
having--reinvigorating their manned program with a future lunar 
destination but no active program going on in that. I believe 
no country has a human program to the Moon. There is talk about 
Russia, there is talk about China, but they don't have any 
human program and they are a long way off from doing that.
    Dr. Spudis. Well, as a matter of fact, there is a--a lot of 
the new discoveries about the poles of the Moon have been 
discovered by a fleet of international lunar orbiters in the 
past five years. I was involved in the Indian Chandrayaan-1 
mission. We flew a payload on that mission to map the poles of 
the Moon with radar. The Japanese had an enormous satellite 
that orbited the Moon and mapped it, the Kaguya. China sent two 
spacecraft to the Moon. Orbiters are getting ready to send a 
lander this year, I believe. ESA has sent spacecraft, European 
Space Agency. There is a lot of international interest in the 
Moon.
    In terms of human missions, there was a great deal of 
interest and support in the European Community for our lunar 
effort before it was canceled. A lot of them were very upset by 
that. I have a lot of colleagues in ESA and European countries 
who really didn't understand why the Moon was just discarded 
without any thought or any debate. And yet they are still 
interested in the Moon. They see the value of going there. They 
still want to go there with people.
    The other big player is China and they clearly have a 
vigorous lunar program. They have a vigorous manned program. 
Clearly, that is on their strategic horizon. I don't know what 
their ultimate goals are. I suspect at this stage it is largely 
to show they can do it like we did it 50 years ago, but if--
they can see the value of going back to the Moon just like 
anyone else here can.
    Dr. Squyres. I think Dr. Spudis has done an admirable job 
of summarizing the robotic missions to the Moon taking place 
lately, basically everybody is doing it. There is enormous 
interest on the part of all major national space agencies, and 
I have nothing further to add with respect--I have no 
particular insights regarding the plans of other space agencies 
for human exploration of the Moon.
    Mr. Cooke. There have been discussions since about 2006 
with 13 other space agencies with NASA in developing lunar 
objectives and participating in that. And in fact, about a year 
ago, I was on a committee where Russians came in and proposed 
that the U.S. join with them in leading lunar exploration--
human lunar exploration. I think there is very widespread 
support and interest in lunar exploration and I believe a lot 
of our international partners are looking for us to be leading 
them.
    Chairman Palazzo. I definitely agree there are 
international partners looking to us for space leadership, and 
hopefully, in the days and years and decades to come, we will 
be able to provide it.
    Now, for example, if one of these countries does achieve 
human lunar mission, and say perhaps it is China and they 
create some kind of infrastructure on the Moon, and the United 
States or international partners have no participation in this, 
do you see any concerns that, you know, them having 
infrastructure and the United States and NASA not having any 
infrastructure could be--is that a warranted question? And we 
can just go down the line if anybody wants to volunteer.
    Dr. Friedman. The United States and the Soviet Union spent 
nearly $300 billion of today's kind of money translated to the 
past on missions to the Moon. As soon as they got there, they 
quit. As soon as the United States got there, they quit. There 
has been very little drive either in the science community or 
technical community to spend anywhere near those kinds of sums 
of money. I do not believe the Chinese will find any more gold 
on the Moon than the United States or the Soviet Union did.
    Dr. Spudis. Well, we didn't know at that time that there 
was gold on the Moon and the gold is at the poles and it is in 
the form of water, which is the most useful commodity you can 
have to create capability and spaceflight. Now, I don't think 
it is something that--having the Chinese going to the Moon is 
something we should worry about but it might be something to 
worry about if we are not there as well, because fundamentally, 
if you are on the frontier and you are the only one doing 
something, then it is your worldview, your political economic 
system, your values that determine the values on the frontier. 
If we are not there, whose values will be determining that?
    Dr. Squyres. If we all agree that our long-term focus is 
Mars and getting humans to Mars in a logical stepwise fashion 
is the goal of our human spaceflight program, I see no 
particular concerns one way or the other with the Chinese going 
to the Moon. I don't think that measurably affects our ability 
to do what we really want to do, which is send humans to 
explore Mars.
    Mr. Cooke. So one point on this is that great nations have 
always explored, and if China is going to the Moon and we are 
not--and we are muddling around somehow, we are not going to be 
leading. And so I think there is a point in all of that. I 
think the United States should aspire to be leaders in space 
exploration.
    Chairman Palazzo. Well, thank you. And since this is going 
to be our last round of questions, I am going to take a little 
liberty with time and I encourage my Members to do the same.
    This question is for Mr. Cooke and Dr. Friedman. The Keck 
study proposed to the use of advanced hall thrusters for the 
mission concept as opposed to other forms of solar-electric 
propulsion. What advantages would hall thrusters offer that 
other types of thrusters such as VASIMR do not? Dr. Friedman or 
Mr. Cooke?
    Dr. Friedman. Well, this is a little bit out of my 
expertise so I am going to have to relay what others have told 
me, and that is that the--both the efficiency and the 
availability, the hall thrusters having been used in space and 
now being developed and usually scaled up to this kind of a 
mission, VASIMR is certainly the kind of thing we should look 
to in the future when we get to the surface of other worlds and 
certainly on Mars missions. But I think for the fact that we 
want to do this mission in just three or four years, hall 
thrusters are here now and they are available, and so they are 
efficient enough. They can be scaled to the right power level 
now.
    Mr. Cooke. I believe that hall thrusters probably have the 
most experience in terms of electric propulsion. I actually 
used to fund VASIMR when I was at Johnson Space Center and it 
certainly is very interesting technology and uses more readily 
accessible fuels than the xenon that is required for electric 
propulsion. The question I have is have we by default somehow 
made a decision that electric propulsion is exactly the right 
way to get to Mars? There is also nuclear thermal propulsion, 
there is nuclear electric, there is--we do need high-efficiency 
propulsion but I think we are using electric propulsion in this 
case because it is most readily available and it is in the form 
of hall thrusters. But I am not sure that the decision--or 
discussions have been made--or had--or the arguments made to 
that that is absolutely the right propulsion technique for 
Mars--eventual Mars--human Mars exploration.
    Chairman Palazzo. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you for 
allowing us to go on a bit because I think this is really the 
core of what it is that we have got to come to some agreement 
about over these next several weeks. I think it has been a 
shame that NASA as an agency and the industry has not had the 
kind of concerted direction both from the Congress and from 
various Administrations that really is appropriate to the task 
that is in front of the Agency.
    I share Dr. Squyres' concerns about, you know, aligning the 
budget and the workforce to the work that we are charged with 
doing. I think it has been quite unfortunate that the Agency 
has been put in a position of having a lot of ideas thrust into 
its basket and none of the money that is required to perform at 
the--in the kind of way that we need it to.
    And so Dr. Squyres, I know that you talked about the 
importance of human exploration and how that can serve the task 
of galvanizing the collective spirit of all of us that then 
will allow for the match of the money with that spirit and 
excitement and so I appreciate that. And so I want to explore 
what is going on with SLS and Orion because, Dr. Squyres, as 
you indicated in your statement that no human-rated launch 
system in NASA's history will fly as infrequently as that 
projected for SLS and Orion and the effect of such a low launch 
rate, as you stated, would make it difficult to maintain 
program momentum and to keep flight teams sharp and mission-
ready.
    And Mr. Cooke, you indicated in your statement that SLS and 
Orion are essential to any human spaceflight strategy. So I 
wonder if you can comment about how funding to date, which has 
been lower than what has been authorized, has impacted your 
position on this and if SLS and Orion are critical regardless 
of the interim strategy. Aren't we putting NASA behind the 8 
ball by not adequately funding SLS and Orion?
    Dr. Squyres. I am deeply worried about this as I noted in 
my written testimony. If you look at the current plans for SLS 
and Orion, they call for an Orion flight, no crew on board, in 
2014 launched not on SLS but on a Delta IV Heavy to go far from 
the Earth, come back, and reenter and validate that part of the 
system. Next, we hope in 2017 would be another flight again 
with no crew on board. And then finally, the first flight with 
an actual crew on board would be eight years from now in 2021 
at the earliest to probably orbit the Moon, which is I think, 
as I said, a logical next step, and then a flight right after 
that that is maybe something like every two years or so as we 
can afford to do it. If you look back at every human-rated 
flight system that we have ever had over NASA's history, none 
has flown so infrequently and I am deeply concerned about this.
    You can quibble all you want about whether SLS is the right 
design, whether Orion is the right design, but those decisions 
have been made. What I now see is a program that is not funded 
at an adequate level to allow that system to be proven out in--
at a logical pace. And that is why I beg of you as a committee 
not to pile more objectives on NASA beyond what they are 
already trying to do because they don't even have enough money 
to do what they are trying to do now.
    Ms. Edwards. So if we came to a conclusion that Mars is the 
next ultimate destination and we need a launch vehicle, 
wouldn't it make sense given that we know that is what we need 
to make those investments that we have to make to keep us on a 
pathway but to do it in a way that ensures that, you know, 
forget the eight-year path, that there are some number of 
events, of activities that ensured safety and mission teams 
that were able to provide the kind of support that they need 
and to be mission-ready? It would seem to me that we would need 
to really--if that is our goal, that we would really need to 
frontload what we are doing so that we could stay on a pathway 
that would result in any kind of success over the next decade.
    Dr. Squyres. I think there are two elements. I think the 
first element is, as you say, to more adequately fund SLS and 
Orion so that they can be developed and proven out on a pace 
that really supports, I think, a safe pathway towards 
developing these cislunar orbit capabilities that we have 
talked about as the next step. And the other is that, in 
parallel with that, begin to sensibly and aggressively pursue 
international partnerships that may provide other pieces of the 
puzzle.
    I stress, however, that if we intend to involve 
international partners in a deep, meaningful way in this 
adventure to Mars, we need to recognize that those 
international partners should have a seat at the table when it 
comes to the negotiating what the steps beyond lunar orbit 
ought to be.
    Ms. Edwards. Mr. Cooke?
    Mr. Cooke. I think you are definitely on the right path. 
Once again, those--the capability, for instance, for SLS with 
its capacity, it is not only just lifting mass but it is also 
volume of payloads and diameters that you need for the kind of 
human spaceflight elements that we are going to launch down the 
road and a deep space crew vehicle is--has capabilities that 
are incredibly important as well. The flight rate is dependent 
and is driven totally by funding at this point. They are going 
through the development, which is a cost, but then you--then 
the recurring units that you get to when you actually start 
flying missions, of course, they are expensive. So the flight 
rate in itself is driven by funding.
    And I will go back to a point I made earlier, the fact that 
they definitely need more funding. I also believe that starting 
with inflation because the effect of flatlined budget with no 
inflation increase means that your buying power is decreasing 
and it is compounding interest. So as you work down the years, 
your buying power goes--is actually going down. You are able to 
afford less and you are flying less. And so the inflation 
aspect of the funding is a first step in that discussion.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize Mr. Posey.
    Mr. Posey. I thank you, Mr. Chairman.
    In the last two decades we have had two dozen or more 
programs to nowhere, programs that were started under one 
Administration or one Congress and canceled or funding stopped 
by the next or another, and I think one of the biggest fears 
that we all have is that we will have more of those, that 
whatever direction we ultimately agree to go in tomorrow that 
the next day or the next Congress or the next Administration 
might decide to cease and pivot into another direction, which 
Constellation, for example, was a waste of $9 billion.
    Congressman Culberson has proposed the REAL Space Act that 
basically would set up a board of directors comprised of 
astronauts, eminent scientists, and such, and that board would 
appoint an administrator for a term of ten years. I don't know 
if it is a rolling ten years, how they will do it, but try and 
give some sustainability, some continuity to our space assets 
and their aspirations in our programs.
    And I realize, you know, nobody in the near future is going 
to figure out how to make chicken salad out of chicken manure, 
but I wonder how you feel Culberson's plan would work in 
reality, if you think that would be part of the answer that 
might help us sustain our programs. And we can start with Mr. 
Friedman.
    Dr. Friedman. Well, I am not sure that that is a magic 
bullet, but certainly we all want stability in the program, and 
anything that the Congress can do to add to that, which of 
course means would they really be giving up their year-by-year 
funding authority on programs?
    I think the key to sustainability really relates also to 
your first question, which is that public interest. We--if the 
program is exciting and bringing back results while it is 
undergoing, not some distant future but something that we can 
do in the current decade, the next decade and making--setting 
distance records and speed records and new accomplishment for 
human spaceflight, learning new things in other worlds, that 
will--that is the only way we can sustain the space program, 
and to me, that is going to be the key to have a publicly 
exciting, interesting program.
    Mr. Posey. Thank you.
    Dr. Spudis. Yeah, I would certainly agree with that in the 
sense that regular milestones on short timescales are critical. 
You need to craft a program that provides paybacks that can be 
seen under reasonable lengths of time, five years, four years, 
something like that. If you don't have the program structured 
that way, you are trying to bite off too big of a chunk. I need 
a giant 50-ton lunar lander and I have got to have it by this 
date. You are not going to go anywhere. You are going to 
consign yourself to future programs to nowhere.
    So what I have tried to do is to look at this from a 
systems point of view. How can I craft a program where I use 
small pieces? Each one is not particularly expensive in itself 
but can be operated together as a complex system. And I think 
that can be done. And one of the values of going to the Moon is 
that it is close enough to where you can do that. You can 
actually use robotic systems to create bigger, complex systems 
out of small pieces so that gives you the ability to start 
returning regular progress on very short timescales, and I 
think that is the key to long-term sustainability.
    Dr. Squyres. I am not personally familiar enough with Mr. 
Culberson's proposed plan to comment on whether it is the key 
to maintaining programs----
    Mr. Posey. No, not the key. No program is perfect but just, 
you know, your initial thoughts.
    Dr. Squyres. Well, I agree with the previous two speakers 
that establishing and maintaining stability in this program is 
critically important. And while the money that gets wasted is a 
big problem, I think another very big problem has to do with 
squandering our most precious resource. The most precious thing 
that NASA has is not SLS, it is not Orion, it is not the 
Curiosity rover. It is the NASA workforce and the knowledge 
base that they possess. And what I see when I see NASA changing 
direction on timescales of a few years is I see demoralization 
of that workforce and I see erosion of that workforce. And I am 
constantly discouraged when I see immensely talented young 
engineers and young scientists who currently work for NASA 
deciding that the best place for them to pursue their goals in 
space is someplace else. And if we cannot maintain a continuity 
of vision and a continuity of purpose within the Agency, we are 
going to lose that workforce, we are going to lose that 
capability, and NASA will no longer be able to do what it 
currently can do.
    Mr. Posey. Well, they did that after Apollo and they are 
doing it after Shuttle, and I don't think anybody at NASA 
actually laid a hand on the vehicles but all the people that 
did are looking for jobs now. They are out of work and they are 
not going to come back when you call them to come back. It is a 
tremendous loss of talent and personnel.
    Mr. Cooke. I have read that plan that you mentioned and I 
think it has merit and it should--it merits discussion. I go 
back to the fact, though, that you need a stable, strategic 
plan on human spaceflight as well, and then that sort of a 
structure could then be one you would have confidence perhaps 
and to manage it. So I think that is important.
    And I will use an example of where stability has made a 
huge difference in a program and it was space station. In the 
late '80s and early '90s, there--the funding was up and down, 
very much like what is going through on SLS and MPCV Orion. And 
we went through a redesign. I was in the middle of all that. I 
led the engineering under Brian O'Connor and then Bill 
Shepherd, but we came out of that with an approach and we got 
stable funding for a number of years. And whereas the program 
before Space Station Freedom was redesigning and renegotiating 
contracts every year, we had stable funding that we were able 
to plan against and actually make progress. And I think without 
that stability in funding that we got back then--it was $2.1 
billion a year I believe--we might not have made it. And the 
space station is a credit to everyone who ever worked on it 
because it is an incredible feat. But the stability--that is an 
example of where stability turned a program around in my view.
    Mr. Posey. And that was sustained by at one time one vote 
in the House.
    Mr. Cooke. Yes, it was. And it was right at that time, it 
was, yeah.
    Mr. Posey. Thank you.
    Chairman Palazzo. I want to thank the witnesses for their 
valuable testimony and the Members for their questions. The 
Members of the Committee may have additional questions for you 
and we will ask you to respond to those in writing. The record 
will remain open for two weeks for additional comments and 
written questions from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 4:28 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Louis Friedman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Paul Spudis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Steven M. Squyres

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Douglas Cooke


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              Appendix II

                              ----------                              


                   Additional Material for the Record

                  Report submitted by Dr. Paul Spudis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
